No.

Supreme Court, U.S.
FILED

JL\-ZVl

AUG 3 I 2021

IN THE

OFFICE OF THE CLERK

Supreme Court of the United States

HONG TANG
Petitioner
V.

RUTHANNE VISNAUSKAS, et al.
Respondents

On Petition For Writ of Certiorari
To The United States Court Of Appeals For The Second Circuit

PETITION FOR WRIT OF CERTIORARI

HONG TANG
Pro se Petitioner
1288 Columbus Ave #213
San Francisco, CA 94133
Phone: 916-799-6363
•E-mail:mailhongtang@gmail:com

1

QUESTION PRESENTED

1. Whether in 42 U.S.C. § 1983 proceedings, when the pro se litigant initially only
argued his property interest in the complaint and then claimed with
developed argumentation in the motion for reconsideration that he was also
deprived of a liberty interest, the liberty interest claim should be considered
properly preserved for appeal, rather than “raised for the first time on
appeal”.

2. Whether a “Rent Administrator’s Order determining the rent overcharge amount
and penalties”, which under New York state law is actually an enforceable
judgment, also constitutes “property” within the meaning of 42 U.S.C. § 1983.

3. Whether the same set of alleged facts which was considered by the lower courts
for the petitioner’s procedural due process claim should have been considered
for the petitioner’s equal protection and substantive due process claims as
well, in light of the circumstances of this case and the rulings established in
Bolling v. Sharpe, 347 U.S. 497 (1954); and Lawrence v. Texas, 539 U.S. 558
(2003) (“the concepts of equal protection and due process are not mutually
exclusive”; ’’discrimination may be so unjustifiable as to be violative of due
process”; “equality of treatment and the due process right to demand respect

for conduct protected by the substantive guarantee of liberty are linked in
o

important respects, and a decision on the latter point advances both
interests.”)*

n
PARTIES TO THE PROCEEDING AND RELATED CASE

The Pro se Petitioner to the proceeding is Hong Tang.

The Respondents to the proceeding are RuthAnne Visnauskas, Commissioner of the
New York State Division of Housing and Community Renewal, and Woody Pascal,
Deputy Commissioner of the New York State Division of Housing and Community
Renewal (official and individual capacities).

Related Case: None

1
PETITION FOR A WRIT OF CERTIORARI

STATEMENT OF THE CASE

This suit was brought by pro se litigant Hong Tang against RuthAnne Visnauskas,
Commissioner of the New York State Division of Housing and Community Renewal,
and Woody Pascal, Deputy Commissioner of the New York State Division of Housing
and Community Renewal (official and individual capacities), pursuant to 42 U.S.C.
§ 1983.

The United States Court of Appeals for the Second Circuit affirmed the district
court’s judgment by a summary order on February 23, 2021.

The court of appeals denied the petitioner’s petition for rehearing and rehearing en
banc on April 22, 2021.

ISSUES AND REASONS

Liberty Interest

2

The court of appeals’ summary order ruled that “[w]e do not consider [the
petitioner’s] claim that he was deprived of a liberty interest without due process,
because [this liberty interest claim] was raised for the first time on appeal, (quoting
Zerilli-Edelglass v. N.Y.C. Transit Auth., 333 F.3d 74, 80 (2d Cir. 2003)).”. See
Footnote No. 1 of the court of appeals’ summary order (Appe. Gt. Dkt. 66-1 at 2)

In fact, the petitioner’s claim that he was deprived of a liberty interest without due
process was properly raised in the district court proceedings, more specifically in
the petitioner’s motion for reconsideration and the reply memorandum in support of
the motion, both of which were filed in the district court. The issue was fully
presented and argued in the district court proceedings. See Dist. Ct. Dkt. 21 8S 5
to 9: Dist. Ct. Dkt. 23 SS 3 to 5

The petitioner properly supported his aforementioned allegation (that he was
deprived

of a

liberty

interest

without

due

process)

with

"developed

a ryu mentationin both the motion for reconsideration and the reply
memorandum in support of the motion, and thus the petitioner did not waive that
issue. See Id,,; See also Wall v. Astrue, 561 F.3d 1048 (10th Cir. 2009) (quoting
Hardeman v. City of Albuquerque, 377 F.3d 1106, 1122 (10th Cir. 2004); and citing
Christian Heritage Acad. v. Okla. Secondary Sch. Activities Ass'n, 483 F.3d 1025,
1031 (10th Cir. 2007)).

3

Moreover, the respondents were ever given an opportunity to and did respond to the
petitioner’s this specific claim that he was deprived of a liberty interest without due
process, in the district court proceedings. See Dist. Ct. Dkt. 22 at 6 (all citations
refer to the pagination generated by the court's electronic docketing system and not
the document’s internal pagination.)

It is “the settled appellate rule that issues adverted to in a perfunctory manner,
unaccompanied by some effort at developed argumentation, are deemed waived.”
See U.S. v. Zannino, 895 F.2d 1 (1st Cir. 1990) (quoting Brown v. Trustees of Boston
Univ., 891 F.2d 337, 353 (1st Cir. 1989); Leer v. Murphy, 844 F.2d 628, 634 (9th Cir.
1988)); See also Mid-South Iron Workers Welfare Plan v. Harmon, 645 Fed. App'x
661, 664 (10th Cir. 2016) ("Issues addressed in a perfunctory manner,
unaccompanied by some effort at developed argumentation, are deemed waived."
(quoting Hardeman v. City of Albuquerque, 377 F.3d 1106, 1122 (10th Cir. 2004))).
On the contrary, in the instant case, the petitioner fully developed his this
argument that he was deprived of a liberty interest without due process, and thus
the issue was properly preserved and should have been reviewed and determined by
the court of appeals on appeal. See Dist. Ct. Dkt. 21

5 to 9: Dist. Ct. Dkt. 23

3 to 5

Put differently, the Second Circuit’s opinion conflicts with the aforementioned

4
decisions of above-noted other United States Courts of Appeals. Moreover, the
Second Circuit’s opinion, as to procedural due process violations, also conflicts with
a decision of this Court and the U.S. Court of Appeals for the Fourth Circuit. See
Jones v. Bd. of Governors of Univ. of North Carolina, 704 F.2d 713, 717 (4th Cir.
1983) (noting that the Supreme Court of the United States has recognized that
"significant departures from stated procedures of [state] government and even from
isolated assurances by [state] governmental officers which have induced reasonable
and detrimental reliance may, if sufficiently unfair and prejudicial, constitute
procedural due process violations." (quoting United States v. Caceres, 440 U.S. 741,
752-53, n.15 (1979))). It should be noted that even West Farms Associates v. State
Traffic Com'n, 951 F.2d 469 (2d Cir. 1991), the case cited by the Second Circuit in its
summary order, also itself acknowledged the constitutionally-protected liberty
interest conferred by state mandatory-character, non-discretionary language (citing
Hewitt v. Helms, 459 U.S. at 472).

Furthermore, it was held by the Second Circuit in the past that “the rule against
considering arguments raised for the first time on appeal ‘is prudential, not
jurisdictional.’”. See United States v. Brunner, 726 F.3d 299, 304 (2d Cir. 2013)
(quoting Sniado v. Bank Austria AG, 378 F.3d 210, 213 (2d Cir. 2004)). Also, the rule
itself is even not an absolute bar to raising new issues on appeal, either. See also
Greene v. U.S., 13 F.3d 577 (2d Cir. 1994) (holding that “[t]his rule is not an absolute

5
bar to raising new issues on appeal; the general rule is disregarded when we think
it necessary to remedy an obvious injustice. See Thomas E. Hoar, Inc. v. Sara Lee
Corp., 900 F.2d 522, 527 (2d Cir.), cert, denied, 498 U.S. 846, 111 S.Ct. 132, 112
L.Ed.2d 100 (1990). We will also sometimes entertain arguments not raised in the
trial court if the elements of the claim were fully set forth and there is no need for
additional fact finding. See Vintero Corp. v. Corporacion Venezolana de Fomento, 675
F.2d 513, 515 (2d Cir. 1982). Entertaining issues raised for the first time on appeal
is discretionary with the panel hearing the appeal.”)

Moreover, this Court held that “ ‘[t]he Federal Rules reject the approach that
pleading is a game of skill in which one misstep by counsel may be decisive to the
outcome and accept the principle that the purpose of pleading is to facilitate a
proper decision on the merits.’ Conley v. Gibson, 355 U.S. 41, 48. The Rules
themselves provide that they are to be construed ‘to secure the just, speedy, and
inexpensive determination of every action.’ Ride 1. ”. See Foman v. Davis, 371 U.S.
178, 181-182, 83 S. Ct. 227 (1962)

Therefore, although the petitioner only

explicitly indicated his property interest in the complaint and then argued in the
motion for reconsideration in details his liberty interest supplemental to his
property interest argument, subsequent to the district court’s initial memorandum
& order rejecting the petitioner’s property interest argument, the petitioner should
not be punished or deprived of the constitutional protections merely for not

6
explicitly mentioning the words of liberty interest in his complaint, given the
aforementioned ruling by this Court.

Thus, the Second Circuit should have reviewed and made a determination of the
petitioner’s claim that he was deprived of a liberty interest without due process. Put
differently, the petitioner properly preserved the claim that he was deprived of a
liberty interest without due process in the district court proceedings, and thus it
was not an issue that was raised for the first time on appeal.

Property Interest

The Second Circuit’s ruling on the petitioner’s claim that he was deprived of a
property interest without due process also conflicts with a prior decision of that
court, and the conflict was not addressed, despite that the petitioner petitioned for
rehearing and rehearing en banc.

More specifically, in Sullivan v. Tbwn of Salem. 805 F.2d 81 (2d Cir. 1986V the
Second Circuit did find an entitlement under state law to the issuance of a
certificate of occupancy which constituted “property” within the meaning of 42
U.S.C. § 1983. Similarly, an administrative ‘Illusory Sublet” claim/application

7
entitles the petitioner for not only a “renewal lease” but also the issuance of a “Kent
Administrator’s Order determining the rent overcharge amount and penalties” (See
Dist. Ct. Dkt. 17-1 at 3 (“Illusory Sublets”); Dist. Ct. Dkt. 17-1 at 24 (Rent
Administrator’s Order)), both of which constitute “property” within the meaning of
42 U.S.C. § 1983, in the same manner as an entitlement to the ‘certificate of
occupancy’ pursuant to the Sullivan.

The authority to have rent overcharge amount and penalties determined by the
state respondents in the form of the issuance of a “Rent Administrator’s Order
determining the rent overcharge amount and penalties” is couched in mandatory
rather than discretionary language. See Dist. Ct. Dkt. 17-1 at 3 (“Illusory Sublets”);
Dist. Ct. Dkt. 17-1 at 24 (Rent Administrator’s Order)

Without the constitutional rights violation, that application (“Illusory Sublet” claim
(administrative claim)) would have been granted in its entirety rather than only
half of the claim/application. See Sullivan v. Town of Salem, 805 F.2d 81 (2d Cir.
1986) (“the applicant had a legitimate claim of entitlement based on the likelihood
that without the due process violation that application would have been granted.”);
Cunney v. Bd. of Trs. of VH. of Gr. Vw., 660 F.3d 612 (2d Cir. 2011) (quoting Id.);
Brennan v. Tbwn of Clarkstown, 19 CV 11115 (VB) (S.D.N.Y. Jul. 27, 2020) (“...
without the due process violation that application would have been granted."

8

(quoting Sullivan v. Town of Salem, 805 F.2d 81, 85 (2d Cir. 1986))); See also Dist.
Ct. Dkt. 17-1 at 3 (“Illusory Sublets”); Dist. Ct. Dkt. 17-1 at 24 (Rent
Administrator’s Order); Dist. Ct. Dkt. 17-1 at 34 to 54 (noting the monthly rent
amount(s) (with overcharge)); Dist. Ct. Dkt. 17-1 at 28 (noting the legal regulated
rent amount(s) (without overcharge))

Similar to the circumstances of the Sullivan, in the instant case, the plain language
of the New York State Division of Housing and Community Renewal (“DHCR”)’s
Fact Sheet #7 (Dist. Ct. Dkt. 17-1 at 3 (“Illusory Sublets”)) actually leaves no room
for discretion and shows a “clear entitlement” to the approval/issuance of a “Rent
Administrator’s Order determining the rent overcharge amount and penalties” upon
an

“Illusory

Sublet”

claim/application,

which

establishes

a

constitutionally-protected property interest in approval of the application at issue
(“Illusory Sublet” claim) in its entirety, including the sub-application for a “Rent
Administrator’s Order determining the rent overcharge amount and penalties”. See
Id,.; See also Sherman v. Town of Chester, 752 F.3d 554 (2d Cir. 2014) (“when the
government's actions are so unreasonable, duplicative, or unjust as to make the
conduct farcical, the high standard [established in

is met.”); Walz v.

Town ofSmithtown, 46 F.3d 162 (2d Cir. 1995)(collecting cases) (“the applicant has a
dear entitlement to the approval sought from the government official or

9
administrative body”, establishing a constitutionally cognizable property interest);
See also RRI Realty Corp. v. Incorporated Village of Southampton, 870 F.2d 911 (2d
Cir. 1989) (analyzing whether applicant possessed property interest in building
permit); Yale Auto Parts, Inc. v. Johnson, 758 F.2d 54, 58-60 (2d Cir. 1985)
(analyzing whether applicant possessed property interest in permit to use property
as automobile junkyard); See also cf. Kelley Property Development, Inc. v. Lebanon,
226 Conn. 314, 627 A.2d 909 (Conn. 1993)(eollecting cases); cf. Red Maple Properties
v. Zoning Commission, 222 Conn. 730, 738, 610 A.2d 1238 (1992)(collecting cases)

Put differently, under New York state law, a “Rent Administrator’s Order
determining the rent overcharge amount and penalties” is an enforceable judgment,
and thus also constitutes “property” within the meaning of 42 U.S.C. § 1983. See
Sullivan v. Town of Salem, 805 F.2d 81 (2d Cir. 1986) (for the proposition of the
plaintiff’s entitlement under state law to the issuance of a certificate of occupancy
which constituted “property” within the meaning of 42 U.S.C. § 1983); See also
Subdivision a(5) of section 26-516 of the administrative code of the city of New York
(the New York City Rent Stabilization Law) (noting that “[t]he order of the state
division of housing and community renewal [the order of the respondents] awarding
penalties may, upon the expiration of the period in which the owner may institute a
proceeding pursuant to article seventy-eight of the civil practice law and rules, be
filed and enforced by a tenant in the same manner as a judgment or not in excess of

10
twenty percent thereof per month may be offset against any rent thereafter due the
owner.”); See also Johnson v. City of Shelby, Miss., 574 U.S. 10, 135 S. Ct. 346, 346
(2014) (per curiam) (noting that federal pleading rules “do not countenance
dismissal of a complaint for imperfect statement of the legal theory supporting the
claim asserted.”)

In addition, in the petitioner’s motion for reconsideration, the petitioner clearly
noted and argued that “in the instant pro se proceeding, a central issue was the
monetary refunds of the rent overcharges and the statutory treble damages, and
therefore property interest and liberty interest are identical and mirror each other
in the instant case. Here, pro se Plaintiff’s property and liberty interests due
process claims are not barred by Mace v. County of Sullivan. ...”. See Dist. Ct. Dkt.
21 § 9; See also Sullivan v. Tbwn of Salem, 805 F.2d 81 (2d Cir. 1986) (“In fact, a
fundamental interdependence exists between the personal right to liberty and the
personal right in property. Neither could have meaning without the other.” (quoting
Lynch v. Household Finance Corp., 405 U.S. 538, 92 S. Ct. 1113 (1972)))

Thus,

the

lower

courts

clearly

erred

constitutionally-protected interests in this case.

in

rejecting

the

petitioner’s

11
Equal Protection and Substantive Due Process Claims

This Court ruled in Bolling v. Sharpe, 347 U.S. 497 (1954); and Lawrence v. Texas,
539 U.S. 558 (2003) that “the concepts of equal protection and due process are not
mutually exclusive”; ’’discrimination may be so unjustifiable as to be violative of due
process”; “equality of treatment and the due process right to demand respect for
conduct protected by the substantive guarantee of liberty are linked in important
respects, and a decision on the latter point advances both interests.”. See Id.

In the instant case, respondents’ novel/ridiculous interpretation, construction and
bad-faith explanation that “rent overcharges were not relevant to [the petitioner’s]
administrative proceeding with DHCR regarding the owner’s alleged failure to
provide a copy of the lease” falls exactly within the aforementioned interactive and
interchangeable situation described by this Court in Bolling v. Sharpe, 347 U.S. 497
(1954); and Lawrence v. Texas, 539 U.S. 558 (2003)

In this case, the petitioner argued that the same set of alleged facts which was
considered by the lower courts for procedural due process claim should have been
considered for equal protection and substantive due process claims as well. See
Dist. Ct. Dkt. 17 § 14; Dist. Ct. Dkt. 17 § 20

The Second Circuit overlooked this

material legal matter, and should have correctly ruled that not only the petitioner’s

12
equal protection claim did relate back to his original complaint (Appe. Ct. Dkt. 66-1
at 6), and thus timely, but also his substantive due process claim was preserved in
the district court proceedings in light of the same set of alleged facts, given the
circumstances of this case (See also Appe. Ct. Dkt. 43 at 7 to 8). See also Johnson v.
City of Shelby, Miss., 574 U.S. 10, 135 S. Ct. 346, 346 (2014) (per curiam) (noting
that federal pleading rules “do not countenance dismissal of a complaint for
imperfect statement of the legal theory supporting the claim asserted.”)

In other

words, the Second Circuit’s opinion, affirming the dismissal of the petitioner's equal
protection and substantive due process claims, conflicts with the aforementioned
decisions of this Court.

More specifically, in this case, as the respondents admitted and explained by
themselves in the Appellees’ Brief (Appe. Ct. Dkt. 38 at 9 to 10), “(a]n ‘illusory
tenancy’ involves a residential leasehold held by a person, known as an ‘illusory
prime tenant,’ who does not occupy the premises for his or her own residential use,
but who instead subleases the premises for a profit to an ‘illusory subtenant,’
see Matter of Badem Bldgs, v. Abrams, 70 N.Y.2d 45, 52-53 (1987), purportedly
plaintiff here. In the case of an illusory tenancy, ‘the subtenant will be accorded the
full protection of the rent stabilization laws.’ Matter of Avon Furniture Leasing, Inc.
v. Popolizio, 116 A.D.2d 280, 284 (1st Dep’t 1986).”.

13
Thus, it is undisputed, by the above-noted respondents’ own admission that, the
issue of “rent overcharges” (the factual finding that the subtenant was charged the
monthly rent by the prime tenant in an amount of above/more than the legal
regulated rent amount, in other words, “(prime tenant! subleases the premises for a
profit’) is actually an essential element and criterion for finding the existence of an
“illusory tenancy”. See also Dist. Ct. Dkt. 23 §§ 1 to 2

Put differently, the issue of “illusory tenancy’Y’illusory tenant”, by definition,
includes the sub-issue of rent overcharges, rent disputes. A finding of the existence
of ““illusory tenancy”/"illusory tenant” requires the rent overcharges (“[prime
tenant] subleases the premises for a profit”) element/criterion. See Id.

Therefore, for the aforementioned reasons, it is clear that the petitioner’s
entitlement to a “renewal lease” for the rent-stabilized apartment in Manhattan
stemmed from “illusory tenancy”, from his near-a-decade-long "illusory (sub)tenant”
status, and further stemmed from a finding of rent overcharges, of the rent disputes
(that the subtenant was charged by the prime tenant an amount for monthly rent
above/more than the legal regulated rent amount). In other words, the Second
Circuit misapprehended this fundamental matter, which is material on both fact
and law (See Appe. Ct. Dkt. 66-1 at 5). See also Dist. Ct. Dkt. 17-1 at 28 (noting the
legal regulated rent amount(s))

14
Moreover, respondents have various different kinds and types of standardized
administrative

complaint

forms

(See

state

respondents’

website,

https://hcr.nv.gov/tenant-owner-forms , visited on August 29, 2021). Instead of
creating an independent, separate, standardized form just for ‘Illusory Sublet”
complaints alone, the respondents, through the DHCR Fact Sheet #7, specifically
directed the petitioner to file his “Illusory Sublet” administrative complaint on a
standardized form titled “ ‘Tenant’s Complaint of Owner’s Failure to Renew Lease
and/or Failure to Furnish a Copy of a Signed Lease’ (DHCR Form RA -90)” (See
Dist. Ct. Dkt. 17-1 at 3 (“Illusory Sublets”)). The same standardized complaint form
is used for the primary purposes of a tenant’s administrative complaint for owner’s
failure to provide a written lease (either a renewal lease (“to Renew Lease”) or a
new/initial lease (“a Copy of a Signed Lease [new/initial lease]”)). See Dist. Ct. Dkt.
10-1 at 3 (“Part III - Nature of Complaint”); See also Appe. Ct. Dkt. 73 at 35 (for a
more legible copy of the administrative complaint form)

Nevertheless, the usage of this standardized form, which is used for multiple
purposes

under the respondents’ instructions, does not mean that the

administrative complaint which was filed on this standardized form must just be
limited to the lease (renewal lease or initial lease) issue. Additionally, the prime
tenant’s refusal/failure to provide the subtenant with a copy of the master lease
caused a suspicion, and signaled and implicated a strong possibility of her act of

15
hiding the rent overcharges fact from the subtenant, because the legal regulated
rent amount was actually marked on the master lease {the lease between the prime
tenant and the owner).

Thus, respondents’ novel/ridiculous interpretation and construction of the
subtenant’s filing of the “Illusory Sublet" administrative complaint on a
standardized form to be a complaint for a copy of the master lease {the lease between
the prime tenant and the owner), to be a mere request for a copy of a written lease,
actually implicated the respondents’ shocking, bad faith intent for violating the
petitioner’s constitutional rights.

The Second Circuit found that “[a]s noted by [respondent] Deputy Commissioner
Woody Pascal in his administrative decision, rent overcharges were not relevant to
[the petitioner’s] administrative proceeding with DHCR regarding the owner’s
alleged failure to provide a copy of the lease. Accordingly, the district court correctly
dismissed [the petitioner’s] procedural due process claim.”. (Appe. Ct. Dkt. 66-1 at
5)

The Second Circuit misapprehended the material fact. In fact, as explained in

details above, “rent overcharges” is not only relevant but also an essential element
and criterion for an “Illusory Sublet” complaint.

16
Likewise, the Second Circuit also erred in finding that “[the petitioner] alleged that
he, a subtenant, had not received a copy of his lease, and in which he indicated that
the tenant may have unlawfully sublet the rent stabilized apartment to him.”.
(Appe. Ct. Dkt. 66-1 at 2)

The Second Circuit again misapprehended the material

fact. In fact, as noted in the district court proceedings (See Dist. Ct. Dkt. 10-1 at 3),
the petitioner had not received a ‘copy’ of the “master lease(s)” (master lease is the
lease between the prime tenant and the owner). The petitioner’s own lease(s) (the
lease between the subtenant and the prime tenant) was attached to the petitioner’s
amended complaint as Exhibit J in the district court proceedings. See Dist. Ct. Dkt.
17-1 at 34 to 54

The seven sublease/sublet agreements (the lease between the subtenant and the
prime tenant), noting the monthly rent amount(s) (with overcharge), were also
submitted to the state respondents as the "evidence" supporting the petitioner's
"Illusory Sublet" claim/administrative complaint. See Dist. Ct, Dkt. 10-1 at 3 (“Part
IV - Evidence”); See also Dist. Ct. Dkt. 17-1 at 28 (noting the legal regulated rent
amount(s) (without overcharge))

Therefore, given the circumstances of this case, the same set of alleged facts also
established the petitioner’s equal protection and substantive due process claims and
should have been considered by the lower courts for determining the timeliness of

17
the petitioner’s equal protection claim and the preservation of his substantive due
process claim for appeal as well.

CONCLUSION

For all of the foregoing reasons, the petition for a writ of certiorari should be
granted.

Respectfully submitted,

Dated: August 30, 2021

HONG TANG
Pro se Petitioner
1288 Columbus Ave #213
San Francisco, CA 94133
Phone: 916-799-6363
E-mail: mailhongtang@gmail.com

